V

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2996
Henry Dailey
Plaintiff - Appellant
v.
United States of America
Defendant - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:18-cv-00948-SRB)
JUDGMENT
Before COLLOTON, GRUENDER, and KELLY, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
January 22, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

\ia

V*

I
i

?

*■

■

V

%

-r

HENRY DAILEY, Movant, v. UNITED STATES OF AMERICA, Respondent.
UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF MISSOURI, WESTERN
DIVISION
2019 U.S. Dist. LEXIS 138613
Civil No. 18-cv-00948-SRB,Criminal No. 16-cr-00337-02-SRB
August 16, 2019, Decided
August 16, 2019, Filed
{2019 U.S. Dist. LEXIS 1}For Henry Dailey, Movant: Richard L. Carney,
LEAD ATTORNEY, Kansas City, MO.
For USA, Respondent: Teresa A. Moore, LEAD ATTORNEY,
United States Attorney's Office-KCMO, Kansas City, MO.
Judges: STEPHEN R. BOUGH, UNITED STATES DISTRICT JUDGE.
Counsel

Opinion
Opinion by:

STEPHEN R. BOUGH
Opinion

ORDER
Before the Court is Movant Henry Dailey's pro se Motion to Vacate, Set Aside, or Correct Sentence
(Doc. #1). For the following reasons the motion is denied.
,1. Background
•

Beginning on October 13, 2016, state and federal agencies conducted "Operation Cross Country X,"
an undercover law enforcement effort in the Kansas City, Missouri, metropolitan area aimed at
stopping prostitution and sex trafficking. This undercover operation took place at a hotel in
Independence, Missouri, which is in the Western District of Missouri. During this undercover .
operation, Movant was detained, transported to Independence Police Headquarters, and Mirandized.
Then, during a recorded interview on October 16, 2016, Movant made several statements to law
enforcement officers, including that he participated in a commercial sex ring. Both parties refer to
these statements as Movant's "confession."
On October 18, 2016, Movant was charged by complaint with one count of{2019 U.S. Dist. LEXIS 2}
sex trafficking of an adult by force, fraud, or coercion, in violation of 18 U.S.C. §§ 1594 and 1591.
On October 19, 2016, United States Magistrate Judge John T. Maughmer appointed Lance Sandage
to be Movant's counsel. On November 2, 2016, a federal grand jury returned an indictment charging
Movant with sex trafficking of an adult by force, fraud, or coercion, in violation of 18 U.S.C. §§
1591(a), (b)(1), and 1594(a) and (c) (Count One); and with two counts of interstate transportation for
prostitution, in violation of 48 U.S.C. § 2142 (Counts Two and Three). On June 26, 2017, Movant
pleaded guilty to Count Two of the indictment pursuant to a binding plea agreement under Federal
Rule of Criminal Procedure 11 (c)(1 )(C), which contained a factual basis for Movant's guilty plea. On
April 11, 2018, this Court sentenced Movant to eighty-four (84) months imprisonment. Movant did not
appeal. On November 29, 2018, Movant filed the present pro se motion under 28 U.S.C. § 2255. The

DISHOT

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Z<\

31865045

V'

Government does not dispute that the motion is timely under § 2255(f)(1). On April 1, 2019, after
Movant had filed the present motion, Judge Maughmer appointed Richard Carney to be Movant's
counsel.
In his pro se motion, Movant asserts seven grounds for relief: (1) this Court's lack of jurisdiction over
Movant's criminal proceedings; (2) ineffective assistance{2019 U.S. Dist. LEXIS 3} of counsel for
"lack of due diligence"; (3) ineffective assistance of counsel for failure to challenge the lawfulness of
Movant's arrest and detention; (4) ineffective assistance of counsel for failure to file motions to
suppress evidence, including his confession; (5) ineffective assistance of counsel for failure to have
Movant evaluated for competency; (6) unreasonable seizure of Movant's person; and (7) deprivation
of Movant's liberty without due process. (Doc. #1). On August 7, 2019, this Court held an evidentiary
hearing.
II. Legal Standard
A person in custody under a federal sentence "claiming the right to be released upon the ground that
the sentence was imposed in violation of" federal law "or that the court was without jurisdiction to
impose such sentence ... may move the court which imposed the sentence to vacate, set aside or
correct the sentence." 28 U.S.C. § 2255(a). The purpose of § 2255 is "to afford federal prisoners a
remedy identical in scope to federal habeas corpus." Sun Bear v. United States, 644 F.3d 700, 704
(8th Cir. 2011) (internal quotation marks omitted) (quoting Davis v. United States, 417 U.S. 333, 343,
94 S. Ct. 2298, 41 L. Ed. 2d 109 (1974)). "Like habeas corpus, this remedy 'does not encompass all
claimed errors in conviction and sentencing.'" Id. (quoting United States v. Addonizio, 442 U.S. 178,
185, 99 S. Ct. 2235, 60 L. Ed. 2d 805 (1979)). Beyond "provid[ing] a remedy for jurisdictional and
constitutional{2019 U.S. Dist. LEXIS 4} errors," the scope of a § 2255 motion "is severely limited; an
error of law does not provide a basis for collateral attack unless the claimed error constituted a
fundamental defect which inherently results in a complete miscarriage of justice." Id. (internal
quotation marks omitted) (quoting Addonizio, 442 U.S. at 178). "In a § 2255 proceeding, the burden
of proof with regard to each ground for relief rests upon the" movant. Kress v. United States, 411
F.2d 16, 20 (8th Cir. 1969) (internal citations omitted).
III. Discussion
A. Jurisdiction
Movant argues this Court was without jurisdiction to preside over his criminal prosecution. (Doc. #1,
p. 3). "The district courts of the United States shall have original jurisdiction ... of all offenses .
against the laws of the United States.” 18 U.S.C. § 3231. "[Sjubject-matter jurisdiction in every
federal criminal prosecution comes from" § 3231, which is "the beginning and the end of the
jurisdictional inquiry." United States v. White Horse, 316 F.3d 769, 772 (8th Cir. 2003) (internal
quotation marks omitted) (quoting Hugi v. United States, 164 F.3d 378, 380 (7th Cir. 1999)). This
Court had subject-matter jurisdiction over Movant's criminal proceedings. Movant was charged
through a federal grand jury's indictment with violating federal criminal laws. Movant's arguments
that he was detained in excess of the time period allowed by Mo. Rev. Stat. § 544.170 and Fed. R.
Crim. P. 5(a) (Doc. #2, p. 3) may be relevant to a motion{2019 U.S. Dist. LEXIS 5} to suppress, but
they are not relevant to this Court's subject-matter jurisdiction over Movant's criminal prosecution.
Movant's motion to vacate, set aside, or correct his sentence on jurisdictional grounds is denied.
B. Ineffective Assistance of Counsel
Movant alleges four grounds for ineffective assistance of counsel. An ineffective assistance of
counsel claim requires a movant to satisfy a two-prong test by showing: (1) his counsel's
performance was .deficient, and (2) the deficiency prejudiced his defense. Deltoro-Aguilera v. United

DISHOT

2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

3(50

31865045

t

States, 625 F.3d 434, 437 (8th Cir. 2010). As to prong one, deficient performance is that which "falls
below the 'range of competence demanded of attorneys in criminal cases."' Theus v. United States,
611 F.3d 441,446 (8th Cir. 2010) (quoting Strickland v. Washington, 466 U.S. 668, 687,104 S. Ct.
2052, 80 L. Ed. 2d 674 (1984)). A movant satisfies this prong by showing that counsel "failed to
exercise the customary skills and diligence that a reasonably competent attorney would [have]
exhibited] under similar circumstances." United States v. Apfel, 97 F.3d 1074, 1076 (8th Cir. 1996)
(citations omitted). Courts "must indulge a strong presumption that counsel's conduct falls within the
wide range of reasonable professional assistance." Strickland, 466 U.S. at 689.
. Prong two, prejudice, requires the movant to "demonstrate that there is a reasonable probability that
the outcome would have been different but for counsel's deficient performance."{2019 U.S. Dist.
LEXIS 6} Theus, 611 F.3d at 447. To satisfy prong two in the guilty plea context, the movant "must
show 'that there is a reasonable probability that, but for counsel's errors, he would not have pleaded
guilty and would have insisted on going to trial."' United States v. Frausto, 754 F.3d 640, 643 (8th
Cir. 2014) (quoting Hill v. Lockhart, 474 U.S. 52, 58, 106 S. Ct. 366, 88 L. Ed. 2d 203 (1985)). Both
prongs must be satisfied for a movant to prevail on an ineffective assistance of counsel claim. Apfel,
97 F.3d at 1076.
I. "Lack of Due Diligence," Failure to Challenge Lawfulness of Movant's Arrest and Detention,
and Failure to File Motions to Suppress
Movant claims ineffective assistance of counsel for Lance Sandage's "Lack of Due Dilligence"
resulting from Sandage's alleged failure to "investigate and research the case in a timely manner," to
"recognize the Constitutional issues surrounding [Movant's] arrest and detention," and to "bring
[these issues] to the Court[']s attention." (Doc. #2, p. 4). Movant also bases his claim on Sandage's
failures to challenge the lawfulness of Movant's arrest and detention and to file corresponding
motions to suppress his confession. (Doc. #2, pp. 4-5). The Government argues Movant does not
meet the Strickland standard. The Government argues Sandage did not fail to exercise due diligence
because Movant "and defense counsel had discussed{2019 U.S. Dist. LEXIS 7} issues surrounding
[Movant's] detention at the Independence Police Department and his videotaped confession prior to
making the strategic decision to enter into the plea agreement with the Government." (Doc. #13, p.
23). Addressing the "prejudice" prong in particular, the Government argues that, even if Movant's
"detention and his subsequent confession may have provided the ground for an at least potentially
colorable suppression motion[,]... a successful challenge to the confession would have been
irrelevant, because the other evidence was more than sufficient to convict [Movant] at trial." (Doc.
#13, p. 21). The Government also points to Sandage's affidavits and argues they "demonstrate!] that
the advice to plead guilty was a strategic decision ... made by [Movant] himself, after weighing the
advantages and disadvantages of moving to suppress the evidence." (Doc. #13, p. 31).
Movant has not made the showing required under Strickland. First, Movant has not shown that
Sandage's performance as an attorney was "deficient" for Sixth Amendment purposes because
Movant has not "overcome the presumption that, under the circumstances, the challenged action
might be considered sound trial strategy." Theus, 611 F.3d at 446-47(2019 U.S. Dist. LEXIS 8}
(quoting Strickland, 466 U.S. at 689). In one of his affidavits attached to the Government's brief,
Sandage attests that he met with Movant five times prior to Movant's change of plea on June 26,
2017, and that during these meetings he and Movant discussed "potential legal issues related to
[Movant's] detention at Independence Police Department," "the issue of a motion to suppress his
videotaped confession," "that filing motion practice while also seeking a plea agreement that
involved cooperation could jeopardize the plea agreement," and "the strength of the government's
case without the videotaped confession." (Doc. #13-2, p. 3). "Based upon these conversations, it was
decided not to file pretrial motions and to continue with the change of plea." (Doc. #13-2, p. 3).

DISHOT

3

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

4a

31865045

Sandage further attests that "after Movant entered his change of plea on June 26, 2017," Sandage
and Movant "had numerous meetings" during which they discussed "the possibility of setting aside
his guilty plea so that motions could be filed related to the unlawful detention by Independence
Police Department and the possible suppression of his videotaped confession." (Doc. #13-2, p. 4).
Sandage attests that during these meetings he "informed [Movant] of the benefits and risks
associated with filing a motion to set aside a guilty plea" and that Movant "made the decision not to
file" such a motion. (Doc. #13-2, p. 4). Movant has not satisfied prong one of Strickland.
Second, even had Movant demonstrated deficient performance on Sandage's part, Movant has not
shown prejudice because he has not demonstrated "a reasonable probability that, but for counsel's
errors, he would not have pleaded guilty and would have insisted on going to trial." Frausto, 754 F.3d
at 643 (internal quotation marks omitted) (quoting Hill, 474 U.S. at 58). Even if Movant's confession
had been suppressed, the other potential witnesses and evidence against Movant undercut the
probability, if any, that Movant would have decided not to plead guilty and instead to insist on going
to trial. Moreover, it is undisputed that Movant faced a potential sentence of life imprisonment if
convicted of Count One at trial and that his plea of guilty to Count Two limited his sentencing
exposure to a maximum of eighty-four months (seven years). Movant has not demonstrated
prejudice under Strickland. Accordingly, Movant's motion is denied insofar as he claims ineffective
assistance of counsel for lack of due diligence, failure to challenge the lawfulness of his arrest and
detention, and failure to file motions to suppress.
ii. Failure to Have Movant Evaluated for Competency
Movant claims ineffective assistance of counsel{2019 U.S. Dist. LEXIS 9} "due to [Sandage's]
failure to have the Movant evaluated by Medical Professionals, to deem [Movant's] level of
understanding, reasoning and comprehension was up to normal standards and to stand trial or to
take a plea.” (Doc. #2, p. 6). Movant argues Sandage knew that Movant "had undergone two brain
surgeries, and had suffered a stroke and several seizures," "that Movant was under care of brain
specialists," and that Movant "must continuously undergo medical procedures due to [his] health
issues." (Doc. #2, p. 6). Movant argues Sandage's "failure to have Movant medically evaluated and
cleared to continue the legal proceedings, shows a blatant and reckless disregard for Movant’s cause
...." (Doc. #2, p. 6). The Government argues that "both defense counsel's observations and the
transcripts of the proceedings in this case show that [Movant] was able to assist in his defense and
competent to proceed." The Government concludes that "[t]here was simply no reason to move for a
competency hearing, and [Movant] cannot show that his attorney was ineffective for not doing so."
(Doc. #13, p. 19).
Movant has not carried his burden under Strickland. It was not deficient performance for
Sandage{2019 U.S. Dist. LEXIS 10} not to have Movant's competency evaluated. "A defendant is
competent to be tried if he has sufficient present ability to consult with his lawyer with a reasonable
degree of rational understanding and a rational as well as factual understanding of the proceedings
against him." United States v. Robinson, 253 F.3d 1065,1067 (8th Cir. 2001) (internal quotation
marks omitted) (quoting Wise v. Bowersox, 136 F.3d 1197,1201 (8th Cir. 1998). Sandage
attests-and Movant does not dispute-that "[d]uring all in-person meetings" between them, Movant
"was alert and eager to assist in his defense," "asked appropriate questions and engaged in
meaningful conversation with [Sandage] regarding this case," "was able to provide the defense with
factual details surrounding the offense conduct," "was very engaged in plea negotiations," "had very
specific questions about sex offender registration," "made inquiries about defense strategies,” and
"appeared to understand the benefits and drawbacks to different defense strategies." (Doc. #13-1, p.
2). Accordingly, Sandage's failure to have Movant's competence evaluated is not performance that
"falls below the 'range of competence demanded of attorneys in criminal cases.'" Theus, 611 F.3d at

DISHOT

4

©2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

5ca)

.

31865045

£
f

446 (quoting Strickland, 466 U.S. at 687). Because Movant fails the first prong of Strickland,
Movant's motion is denied insofar as{2019 U.S. Dist. LEXIS 11} he claims ineffective assistance of
counsel for Sandage's failure to have Movant evaluated for competency. See Apfel, 97 F.3d at 1076.
C. Unreasonable Seizure and Violation of Due Process
Movant also challenges the lawfulness of his arrest and detention. Movant argues his arrest was an
unreasonable seizure of his person in violation of the Fourth Amendment and that his detention
violated Missouri statute, Fed. R. Crim. P. 5(a), and the Due Process Clause of the Fourteenth
Amendment. (Doc. #1, pp. 6-7). By making a valid guilty plea, however, Movant has waived these
challenges. "A valid guilty plea ... waives a defendant's 'independent claims relating to the
deprivation of constitutional rights that occurred prior to' pleading guilty." United States v. Pierre, 870
F.3d 845, 848 (8th Cir. 2017) (quoting Tollett v. Henderson, 411 U.S. 258, 267, 93 S. Ct. 1602, 36 L.
Ed. 2d 235 (1973)). "Stated differently, a valid guilty plea forecloses an attack on a conviction unless
'on the face of the record the court had no power to enter the conviction or impose the sentence.'"
Walker v. United States, 115 F.3d 603, 604 (8th Cir. 1997) (quoting United States v. Vaughan, 13
F.3d 1186,1188 (8th Cir. 1994)). Moreover, when Movant pleaded guilty he expressly agreed to
waive his right to collaterally attack his conviction or his sentence except on grounds of ineffective
assistance of counsel, prosecutorial misconduct, or an illegal sentence. Movant does not dispute that
his guilty plea was "knowing and voluntary." See id. at 605 (citing McCarthy v. United States, 394
U.S. 459, 466, 89 S. Ct. 1166, 22 L. Ed. 2d 418 (1969)). To the extent Movant bases{2019 U.S. Dist.
LEXIS 12} his motion on the illegality of his arrest or detention, his motion is denied.
D. Certificate of Appealability
r

A Certificate of Appealability will be issued "only if the applicant has made a substantial showing of
the denial of a constitutional right." 28 U.S.C. § 2253(c). For the reasons set forth above, this case
does not present issues that are deserving of appellate review under the standard Accordingly, a
Certificate of Appealability is denied.
IV. Conclusion
For the above reasons Movant Henry Dailey's pro se Motion to Vacate, Set Aside, or Correct
Sentence (Doc. #1) is denied.
IT IS SO ORDERED.
Is/ Stephen R. Bough
STEPHEN R. BOUGH, JUDGE
UNITED STATES DISTRICT COURT
DATE: August 16, 2019

DISHOT

5

© 2019 Matthew Bender &'Company, Inc., a member of the LexjsNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

(c> Oi.

31865045

ff

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2996
Henry Dailey
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:18-cv-00948-SRB)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
March 23, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

1*.

k

1

;■>

!1
«
«

. ATTORNEY WORK PRODUCT

1

t■■.

si

SANDAGE

%

F

I

I

iS5S5?<

To: Lance Sandage
From; Sarah Hess
00: Henry Dailey
Dare: 11/14/17
Re: Dailey Timeline and Research
*

a
*

«

!
»

*
*
•

*

*
*

JTIO

19/14/16: Undercover sting/contact with V1
10/15/16: Interview of V'l
o early morning hours
c mentions “Cerius’s cousin”
*
no mention of Dailey by name or description
o Shows LEOs photos of V2 and V3 on f3ackpage.com
"
IDs V2 as the “baby faced girt' who came with Miller’s cousin
10/15/(8: Dailey detained and arrested at Staybridge Suites after being seen in the lobby with V2 (officers
' identified V2 based on riackpage.com ad shown by VI):
o © 2:50 a.m. (one report lists 2:45 a.m..)
o Ely.Independence Police Department (iPD): Del. Burris, Det. Young, Det. Knox
« For violation of § 566.209.1 RSMo.
■ Transported to IPD for 24-hour investigative hold.
10/15/16: V2 detained at Staybridge Suites white exiting lobby with Dailey (identified based on Backpage.com
ad shown by VI).
Told officers she wanted to get away from the group.
O
10/15/16: V3 interviewed
o @ Staybridge Suites
*:
10/15/16: Dailey booked into IPD
c @ 5:06 a.m..
10/15/16: V2.Interviewed by Homeland Security Investigation (HSi) Special Agents at IPD
o
@ 7:25. a.m.
o
Talks about Dailey
54-hour bold period' (§ 544,1?0
10/16/16: Dailey interrogated by HS! Special Agents at IPD
___ inteorogesYr
o
@ 2:00 a.m.-5:00 a.m.
video recordec/written statement.
o
10/16/16: Daiiey transported to Centerpoint Medical Center for headache (told officers that since brain surgery,
all headaches needed medical attention).
@ around 6:00 a.m. (at hospital for 2 hrs and 45 mins)
o
IPD report Indicates that since Federal charges ate pending, they will not file a “GOS for city charges.”
o
10/17/16: IPD ran Global Subject Activity Report on Dailey
o
@11:25 a.m.
10/18/16: Federal Complaint Filed
Q
Initial appearance before Judge Maughmer

tic state charges were ever filed. Case was never referred to Prosecutor, (per SGH conversation with Asst. Jackson
County Prosecutor on 1,1 /14/17). No city charges were ever filed in independence Municipal Court per phone
conversation with Court on 11/15/17.
%

L

*
■ yri, R. Grim. P. 5(a) states, “[a] person making an arrest within the United States must take the defendant without
Accessary delay before a magistrate judge, or before a state or local judicial officer as Rule 5(c) provides ...” Rule 5(c)
urh -er provides that if arrest occurred in the district where the offense was allegedly committed, such initial appearance
be made in that district to either a magistrate judge or before s state of local judicial officer.
lb U.S.C. § 3501(c) states, “In any criminal prosecution by the United States ... a confession made or given by a person
-c; is ? defendant therein, while such person was under arrest or o*.her detention in the custody of any law-enforcement:
officer or law-enforcement agency, shall not be inadmissible solely because of delay in bringing such person before a
magistrate [magistrate judge] of other officer... if such confession is found by the trial judge to have been made
voluntarily and if the weight to be given the confession is left to the jury and if such confession was made or given by
..boh person within six hours immediately following his arrest or other detention.” Put simply, any confessions given
.whin six hours of arrest are presumed to be attained without unnecessary delay.
• foBe there was some debate over whether congress’s enactment of § 3501 (c) abrogated the Court’s decisions under
; se McNabb-Mallory cases dealing with presentment delay, the Court held in Corley v. United States, 556 U.S. 303
(2009), that § 3501 (c) merely revised the McNabb-Mallory rule:
,
“[A] district court with a suppression claim must find whether the defendant confessed within six hours
of arrest (unless a longer delay was ‘reasonable considering the means of transportation and the
distance to be traveled to the nearest available [magistrate judge]'). It the confession came within that
period, it is admissible, subject to the other Rules of Evidence, so long as it was ‘made voluntarily and ...
the weight to be given [it] is left to the jury.’ Ibid. If the confession occurred before presentment and
beyond six hours, however, the court must decide whether delaying that long was unreasonable or
unnecessary under the McNabb-Mallory cases, and if it was, ins confession is to be suppressed.”
Joiley, 556 U.S. at 222. Thus, the remedy for a violation of the presentment ruie (Fed. R. Crim. P. 5(a)) is not dismissal of
the case, but rather suppression of the confession obtained in violation ot said ruie.
The Eighth Circuit, along with others, has long held that there is “no hard and fast rule” that governs “what constitutes
m necessary delay and each case must be determined on its own facts and circumstances.” Mbit v. United States, 280
; ,2o 273, 274 (8th Cir. 1960). In so doing, judges are to determine the voluntariness of a confession, taking into account
ail of the surrounding circumstances including “(1) the time elapsing between arrest and arraignment of the defendant
mak.ng the confession, if it was made after arrest and before arraignment, (2) whether such defendant knew the nature
cf ;7ie offense with which he was charged or of which he was suspected at the time of making the confession, (3)
whether or not such defendant was advised or knew that he was not required to make any statement and that any such
.statement ecu id be used against him, (4) whether or not such defendant tied been advised prior to questioning of his
right to the assistance of counsel; and (5) whether or not such defendant was without the assistance of counsel when
questioned and when giving such confession.” United States v. Jackson, 712 F.2d 1283, 1286-87 (8th Cir. 1983) (quoting
13 U.S.C. § 3501(b)). However, “delay for the purpose of interrogation is the epitome of ‘unnecessary delay.’” United
iiaies v. Casillas, 792 F.3d 929, 930 (8th Cir. 2015) (quoting Corley, 556 U.S. at 308), Courts have generally also held
mat weekend delays are reasonable. See United States v. Stinnett, 2015 U.S. Dist. LEXIS 52210, *15 (W.D.Mo. 2015).
Tina Eighth Circuit has also been clear that § 3501 (c) applies only to arrests and detention based on federal charges. See
United States v. Pugh, 25 F.3d 669, 674 (8th Cir. 1994).
“the ‘arrest or other detention’ of which [§ 3501 (c)] speaks must be an ‘arrest or other detention’ for a
violation of federal law. ... If, instead, the person is arrested and held on state charges, § 3501(c) does
not apply, and the safe harbor is not implicated. This is true even if the arresting officers (who, when the
arest is for a violation of state law, almost certainly will be agents of the State or one of its subdivisions)
believe or have cause to believe that the person also may have violated federal law ... As long as the
person is arrested and held only on state charges by state or local authorities, the provisions of §
3501(c) are not triggered.”
United States v. Alvarez-Sanchez, 551 U.S. 350, 358 (1994). There are circumstances under which a state
•cetenfion can invoke § 3501 (c), but such is rare and generally requires a showing that the “state and federal
Timers colluded to deprive a person of his right to a prompt presentment. United States v. Stinnett, 2015 U.S.
Oist. LEXIS 52210, *14 (W.D.Mo. 2015). The same is true with application to Rule 5(a): “when there is a working
arrangement between state police and federal agents for the purpose of aiding and abetting the federal officers
h carrying on interrogation of the suspect in violation of Federal Rule 5(a) requiring prompt presentment before a
-dge, the delay is measured from the time of detention.” United States v. Roberts, 928 F. Supp. 910, 938
{/V.O.Mo. 1996).

i

Fed. R. Crim. P. 5(a) states, “[a] person making an arrest within the United States must take the defendant without
unnecessary delay before a magistrate judge, or before a state or local judicial officer as Rule'5(c) provides ...” Rule 5(c)
further provides that if arrest occurred in the district where the offense was allegedly committed, such initial appearance
must be made in that district to either a magistrate judge or before a state of local judicial officer.
18 U.S.C. § 3501(c) states, “In any criminal prosecution by the United States ... a confession made or given by a person
who is a defendant therein, while such pferson was under arrest or other detention in the custody of any law-enforcement
officer or law-enforcement agency, shall not be inadmissible solely because of delay in bringing such person before a
magistrate [magistrate judge] or other officer... if such confession is found by the trial judge to have been made
voluntarily and if the weight to be given the confession is left to the jury and if such confession was made or given by
such person within six hours immediately following his arrest or other detention.” Put simply, any confessions given
within six hours of arrest are presumed to be attained without unnecessary delay.
While there was some debate over whether congress’s enactment of § 3501 (c) abrogated the Court’s decisions under
the McNabb-Mallory cases dealing with presentment delay, the Court held in Corley v. United States, 556 U.S. 303
(2009), that § 3501 (c) merely revised the McNabb-Mallory rule:
.
“[A] district court with a suppression claim must find whether the defendant confessed within six hours
of arrest (unless a longer delay was ‘reasonable considering the means of transportation and the
distance to be traveled to the nearest available [magistrate judge]’). If the confession came within that
period, it is admissible, subject to the other Rules of Evidence, so long as it was ‘made voluntarily and ...
the weight to be given [it] is left to the jury? Ibid. If the confession occurred before presentment and
beyond six hours, however, the court must decide' whether delaying that long was unreasonable or
unnecessary under the McNabb-Mallory cases, and if it was, the confession is to be suppressed.”
Corley, 556 U.S. at 222. Thus, the remedy for a violation of the presentment rule (Fed. R. Crim. P. 5(a)) is not dismissal of
the case, but rather suppression of the confession obtained in violation of said rule.
The Eighth Circuit, alOn§ With others, haslong held that there is “ho hard and fast'rule” that governs “what constitutes
unnecessary delay arid each case must be determined on its own facts and circumstances.” Holt v. United States, 280
F.2d 273, 274 (8th Cir. I 960). In so doing, judges are to determine the voluntariness of a confession, taking into account
all of the surrounding circumstances including “(1) the'time eiapsing between arrest&nd arraignment of the defendant
making the confession, if it was made after arrest and before Arraignment, (2) whethei Such defendant knew the nature
of the offense with which he was charged or of which he was suspected at the time"Of making the confession, (3)
whether or not such defendant was advised or knew that he was not required to make any statement and that any such
statement could be used against him, (4) whether or not such defendant had been advised prior to questioning of his
right to the assistance of counsel; and (5) whether or not such defendant was without the assistance of counsel when
questioned and when giving such confession.” United States v. Jackson, 712 F.2d 1283, 1286-87 (8th Cir. 1983) (quoting
18 U.S.C. § 3501 (b)). However, “delay for the purpose of interrogation is the epitome of ‘unnecessary delay.’” United
States v. Casillas, 792 F.3d 929, 930 (8th Cir. 2015) (quoting Corley, 556 U.S. at 308). Courts have generally also held
that weekend delays are reasonable. See United States v. Stinnett, 2015 U.S. Dist. LEXIS 52210, *15 (W.D.Mo. 2015).
The Eighth Circuit has also been clear that § 3501 (c) applies only to arrests and detention based on federal charges. See
United States v. Pugh, 25 F.3d 669, 674 (8th Cir. 1994).
.,
“the ‘arrest or other detention’ of which [§ 3501 (c)] speaks must be an ‘arrest or other detention’ for a
violation of federal law. ... if, instead, the person is arrested and held on state charges, § 3501(c) does
not apply, and the safe harbor is not implicated. This is true even if the arresting officers (who, when the
arrest is for a violation of state law, almost certainly will be agents of the State or one of its subdivisions)
believe or have cause to believe that the person also may have violated federal law ... As long as the
person is arrested and held only on state charges by state or local authorities, the provisions of §
3501(c) are not triggered.”
United States v. Alvarez-Sanchez, 551 U.S. 350, 358 (1994). There are circumstances under which a state
detention can invoke § 3501(c), but such is rare and generally requires a showing that the “state and federal
officers colluded to deprive a person of his right to a prompt presentment. United States v. Stinnett, 2015 U.S.
Dist. LEXIS 52210, *14 (W.D.Mo. 2015). The same is true with application to Rule 5(a): “when there is a working
arrangement between state police and federal agents for the purpose of aiding and abetting the federal officers
in carrying on interrogation of the suspect in violation of Federal Rule 5(a) requiring prompt presentment before a
judge, the delay is measured from the time of detention.” United States v. Roberts, 928 F. Supp. 910, 938-:
(W.D.Mo. 1996).
*
2

Exhibit C

